   LEGAL SERVICES
     CORPORATION




         Office of
     Inspector General




Semiannual Report to the Congress
 October 1, 2012 – March 31, 2013


         www.oig.lsc.gov
                TO THE BOARD OF DIRECTORS OF THE
                   LEGAL SERVICES CORPORATION
               AND TO THE UNITED STATES CONGRESS

         A MESSAGE FROM THE INSPECTOR GENERAL


I am pleased to submit this report on the activities and
accomplishments of LSC’s Office of Inspector General (OIG) for the
period October 1, 2012, through March 31, 2013.

During this reporting period we conducted audits relating to the
adequacy of internal controls, particularly with respect to grantee
financial operations, and also continued our audits of grantee
expenditures and accomplishments under LSC’s Technology Initiative
Grant program. Audits completed during the period identified a total
of over $233,500 in questioned costs.

The Corporation’s 2012 financial statement audit report was issued
during this period. No significant deficiencies or material weaknesses
were identified. In an accompanying management letter the auditors
noted certain control weaknesses relating to the bank reconciliation
process and the voiding of checks.            Management agreed to
implement all the auditors’ recommendations to address these
weaknesses.

We completed the second year of our initiative to provide enhanced
oversight of the independent audits required annually of LSC
grantees. Firms performing grantee audits are now subject to a
Quality Control Review (QCR) at least once every four years. During
the period we issued 22 QCRs. The process identified a number of
areas for improvement.        We issued an advisory memorandum
providing grantees and their auditors with information on the findings
of QCRs conducted over the preceding fiscal year to help them avoid
similar problems in the future. In one audit reviewed this period the
deficiencies identified were so significant as to lead to our rejection of
the audit report and initiation of debarment proceedings against the
auditing firm.

We opened 17 new investigations and closed 13 investigations during
the reporting period. Among the investigations were criminal cases
involving fraudulent activity and financial irregularities by grantee
employees, and regulatory matters, including unauthorized outside
practice of law and engaging in restricted activities such as
redistricting, providing legal assistance to aliens, and lobbying. In one
case a former grantee employee was indicted and pled guilty to
federal program fraud for obtaining over $91,500 from the grantee
through fraudulent claims.

We continued to emphasize outreach and education as part of our
ongoing efforts to help prevent fraud and abuse in LSC-funded
programs. We maintained an active calendar of fraud awareness
briefings and fraud vulnerability assessments. In that regard, I want to
add a special note to recognize LSC President Jim Sandman for his
initiative in requesting that our office conduct a fraud vulnerability
assessment of LSC’s headquarters operations. The OIG commends
him for this proactive approach; it helps set a positive “tone at the
top,” recognized as a key element in fraud prevention.

This period we also completed our pilot program of regulatory
vulnerability assessments. We work on-site with grantees, reviewing
compliance policies, procedures, and practices for weaknesses in
order to help prevent regulatory violations and increased exposure to
fraud. Based on the success of the pilot, we have added these
assessments to our regular schedule of preventive efforts.

I wish to express my continuing appreciation to LSC’s Board of
Directors for the interest and support they have shown for the work of
the OIG. I also remain deeply appreciative to the Congress for its
steadfast support of this office.


Sincerely,




Jeffrey E. Schanz
Inspector General
April 30, 2013
                                         TABLE OF CONTENTS

OFFICE OF INSPECTOR GENERAL OVERVIEW ......................................................... 1 
AUDITS ........................................................................................................................... 3 
   Legal Aid and Defender Association, Inc. – Audit Of Selected Internal Controls ......... 3 
   Lone Star Legal Aid – Audit of Selected Internal Controls ........................................... 6 
   Community Legal Services – Audit of Selected Internal Controls ................................ 8 
   Audits of Technology Initiative Grants ......................................................................... 9 
     Examination of Expenditures Incurred for the Performance of TIGs Awarded to
          Idaho Legal Aid Services ................................................................................... 9 
   FY 2012 Corporate Audit ........................................................................................... 10 
   Statistical Summary ................................................................................................... 11 
   Oversight of IPA Audits.............................................................................................. 12 
     Independent Audits of Grantees............................................................................. 12 
     Desk Reviews of IPA Reports ................................................................................ 12 
     Quality Control Reviews ......................................................................................... 12 
     Follow-up Process.................................................................................................. 13 
     Review of Grantees’ Annual Audit Reports: IPA Audit Findings ............................ 14 
INVESTIGATIONS ........................................................................................................ 15 
   Criminal Proceedings................................................................................................. 15 
     Former Grantee Employee Indicted and Pleads Guilty to Fraud ............................ 15 
   Regulatory Actions..................................................................................................... 15 
     Former Grantee Employee Violated LSC Regulations ........................................... 15 
     Grantee Employees Engaged in Prohibited Activities ............................................ 16 
   Recovery Actions ....................................................................................................... 16 
     Investigation Results in Questioned Cost Proceeding............................................ 16 
   Proactive Fraud Prevention Initiatives ....................................................................... 16 
     Fraud Awareness Briefings .................................................................................... 17 
     Webinar .................................................................................................................. 17 
     Fraud Vulnerability Assessments ........................................................................... 18 
     Regulatory Vulnerability Assessments ................................................................... 18 
     Fraud Alert Issued on Employer-paid Health Care ................................................. 19 
   Hotline ....................................................................................................................... 20 
   Statistical Summary ................................................................................................... 21 
OTHER OIG ACTIVITIES.............................................................................................. 22 
   Review of Proposed Legislation, Regulations and Policy .......................................... 22 
   Litigation .................................................................................................................... 22 
   Congressional Requests............................................................................................ 22 
   Management Information Memoranda ....................................................................... 23 
   Freedom of Information Act ....................................................................................... 23 
   Professional Activities and Assistance....................................................................... 23 
APPENDIX – PEER REVIEWS ..................................................................................... 24 
TABLE I ......................................................................................................................... 25 
TABLE II ........................................................................................................................ 27 
TABLE III ....................................................................................................................... 28 
TABLE IV ...................................................................................................................... 29 
TABLE V ....................................................................................................................... 30 
          OFFICE OF INSPECTOR GENERAL OVERVIEW		

The LSC Office of Inspector General operates under the Inspector General Act of 1978,
as amended, 5 U.S.C. App. 3. The OIG has two principal missions: (1) to assist
management in identifying ways to promote economy and efficiency in the activities and
operations of LSC and its grantees; and (2) to prevent and detect fraud and abuse.

The OIG's primary tool for achieving these missions is objective and independent fact-
finding, performed through financial and other types of audits, evaluations, and reviews
and through investigations into allegations of wrongdoing. Its fact-finding activities
enable the OIG to develop recommendations to LSC, Congress, and grantee
management for actions that will correct problems, better safeguard the integrity of
funds, improve procedures, and otherwise increase the economy, efficiency and
effectiveness of LSC programs.

The OIG is also tasked with ensuring the quality of audits of LSC and its grantees,
conducted by independent public accountants, and with reviewing proposed and
existing regulations and legislation affecting the operations and activities of LSC and the
programs it funds.

In addition, since 1996, LSC's annual appropriations have directed that grantee
compliance with legal requirements be monitored through the annual grantee audits
conducted by independent public accountants, under guidance developed by the OIG.
Congress has also specified that the OIG has authority to conduct its own reviews of
grantees.

The OIG is headed by the Inspector General, who reports to and is under the general
supervision of the LSC Board of Directors. The IG has broad authority to manage the
OIG, including setting OIG priorities and activities, and to hire OIG personnel and
contractors.

To ensure objectivity, the IG Act grants the LSC IG independent authority to determine
what audits, investigations, and other reviews are performed, to gain access to all
necessary documents and information, and to report OIG findings and
recommendations to LSC management, its Board of Directors, and Congress.

The IG Act also prohibits LSC from assigning to its IG any of LSC’s own "program
operating responsibilities." This means that the OIG does not perform functions
assigned to LSC by the Legal Services Corporation Act, 42 U.S.C. §§2996 et seq.,
other than those transferred to the OIG under the IG Act and those otherwise assigned
by Congress, for example in LSC’s annual appropriations acts.




                                            1
The IG reports serious problems to the LSC Board of Directors and must also report to
appropriate law enforcement authorities when, through audit, investigation, or
otherwise, the IG has found that there are reasonable grounds to believe that a crime
has occurred. The IG is required by law to keep the Congress informed of the activities
of the office through semiannual reports and other means. The IG also provides
periodic reports to the board and management of LSC and, when appropriate, to the
boards of directors and management of LSC grantees. Some of these reports will be
specific (e.g., an audit of a particular grantee or an investigation of a theft or
embezzlement), while others will be of broader application and may address more
general or systemic issues.

To be effective, the OIG works cooperatively with the board and management of LSC,
seeks their input prior to choosing topics for OIG review, and keeps them informed of
OIG activities. Within their different statutory roles, the OIG and LSC management
share a common commitment to improving the federal legal services program and
increasing the availability of legal services to the poor.




                                          2
                                       AUDITS

During this reporting period, the OIG issued four audit reports, discussed below. The
four reports identified over $233,533 in questioned costs. The OIG also provided
oversight for LSC’s Fiscal Year (FY) 2012 financial statement audit and transmitted the
final audit report to the LSC Board of Directors. Seven grantee audits were in progress
at the end of the reporting period. The OIG has issued one draft audit report to grantee
management for comment. Four audits are in the draft report writing stage. Two audits
are in the field work stage. Two additional grantee audits have been scheduled to start
in May 2013 and others are being planned. Three audits are being planned within LSC
headquarters.

The OIG has responsibility for overseeing the independent public accountant (IPA)
audits performed annually at each grantee. During the reporting period, the OIG
reviewed 21 IPA reports with fiscal years ending June 30, 2012, through September 30,
2012.

The OIG also issued 22 quality control review (QCR) reports this period under our QCR
initiative and published our second annual summary of the findings for use by IPAs in
planning future work. The goal of this initiative is to improve the overall quality of the
audits and to ensure that all audits are conducted in accordance with applicable
standards and with the guidance provided by the OIG. The OIG required the IPAs for
20 of the audits reviewed to provide further documentation. We will evaluate the
information provided and monitor action by the IPAs in response to the reviews.

Two of the IPA audits were found not to have met requisite standards. In one of the two
instances, the OIG rejected the audit report and has initiated a process, in accordance
with 45 CFR Part 1641, to determine whether or not to debar the IPA responsible for the
report.


Legal Aid and Defender Association, Inc. – Audit Of Selected Internal
Controls

The OIG assessed the adequacy of selected internal controls in place at Legal Aid and
Defender Association, Inc. (LADA), Detroit, MI, related to specific grantee operations
and oversight, including program expenditures and fiscal accountability.
The OIG reported a scope limitation with respect to this audit because of difficulties we
encountered in evaluating the adequacy of the grantee’s internal controls. Government
auditing standards require that we report any significant constraints on our audit
approach resulting from limitations on the availability of information. LADA did not
provide requested user account profiles for the ADP payroll system with activity
permissions for each user and activity logs for the ADP software program for the last
two fiscal years. User profiles specify which staff members are able to access the
payroll system and the types of commands they can execute within the program.
                                            3
Activity logs record the executed commands by user for historical reference and provide
an audit trail to verify user activity within the system. Without complete information on
each user’s permissions in ADP and activity logs, we could not fully evaluate whether
the internal controls over this segment of the payroll process were adequate, properly
designed, and functioning as intended.
Except for the scope limitation noted above, we generally found internal controls
reviewed at LADA adequate as they related to specific grantee operations and
oversight, including program expenditures and fiscal accountability. The grantee's
disbursements tested were, for the most part, adequately supported and allowable.
While many of the controls were adequately designed and properly implemented as
they related to specific grantee operations and oversight, we reported that some areas
needed to be strengthened and/or formalized, particularly with respect to payroll, the
grantee's document management system, the administrative fee allocation process, and
contracting.

Specific findings included:

      Duties need to be segregated. The HR Generalist performed both personnel and
       payroll functions. The HR Generalist had the ability to create, modify, and
       remove employee information in the grantee payroll system, customarily a
       personnel function. However, the HR Generalist also had unrestricted access in
       the payroll system, and was extensively involved in the payroll process. As
       reflected in the scope limitation, the OIG was unable to confirm the HR
       Generalist's precise administrative permissions within the payroll system.

      The grantee could not provide documentary evidence to support the assertion
       that payroll reconciliations were performed monthly to ensure that amounts paid
       and processed are accurate. While claiming that the reconciliations were
       performed monthly, grantee management did not maintain evidence of the
       reconciliations. The grantee also did not have written policies and procedures
       detailing the payroll reconciliation process to be followed.

      The Document Management System (DMS) had weaknesses in controls over
       maintaining the integrity of documents imaged within the system. Those
       weaknesses related to employee access rights and a lack of an audit log which
       would track all changes made by the users of the documents. DMS is a digital
       image archive system that allows the grantee to dispose of its paper records
       while preserving a digital image of the documents. The grantee uses DMS to
       image casework records, finance records, and human resource records.

      Policies and procedures were not adequately documented describing how the
       administrative fee assessed to the Civil Law Group (CLG) is allocated to the LSC
       Basic Field Grant. The administrative fee reflects the expenses incurred by the
       Administrative Services Group (ASG) while performing financial and other
       support services for all of LADA’s law groups. The purpose of the administrative
       fee is to match the ASG's expenses with law group revenues since the ASG does

                                           4
       not perform law-related activities and therefore has no specific funding source.
       The ASG mainly consists of Human Resources, Finance/Accounting and
       Executive Management.

      Policies and procedures needed to be fully developed, documented, and
       implemented with respect to maintaining evidence that competition was sought
       for large contracts. Also, for one particular vendor, the grantee did not maintain a
       copy of the formal contract.

The OIG made eight recommendations:
       Three recommendations addressed issues related to the payroll scope limitation
       and related control deficiencies. These recommendations addressed the need for
       segregation of duties; formulating written policies and procedures detailing the
       payroll reconciliation process and ensuring that this process and related internal
       controls were communicated and understood by all relevant personnel; and the
       need to properly conduct and document monthly payroll reconciliations.
       Two recommendations related to strengthening the controls over the DMS. The
       OIG recommended that accounting staff's access rights to the DMS be
       reasonably limited in terms of creation, modification, and deletion of documents in
       order to protect the integrity of pertinent accounting information. The OIG also
       recommended that DMS Activity Logs be instituted to enable tracking and
       monitoring of all activities performed in the DMS and by whom.
       One recommendation addressed the need for the grantee to develop detailed,
       written policies and procedures for allocating the CLG's administrative fee among
       LSC and other funding sources.
       Finally, two recommendations addressed the need to improve controls over
       LADA’s contracting process. We recommended, first, that the grantee formulate
       policies and procedures for maintaining documentation of the contracting process
       that are in conformity with the provisions of the Accounting Guide for LSC
       Recipients (Accounting Guide), Ch. 3-5, “Fundamental Criteria.” Second, we
       recommended that the grantee also ensure that all products and services
       obtained or performed pursuant to specific, agreed-upon terms be supported by a
       formal agreement, as stated in the grantee's policies and procedures.
The OIG considered grantee management’s planned actions to be responsive to two of
the eight recommendations.       We considered the grantee’s responses to six
recommendations as nonresponsive. These were referred to LSC management for
resolution. The two recommendations considered responsive have been closed. The
six recommendations referred to LSC management for resolution will remain open until
follow-up actions are completed and appropriate written notification is provided to the
OIG.
Grantee management disagreed with the findings and associated recommendations
related to payroll. Management did not believe there was a segregation of duties issue

                                            5
or that any additional processes or procedures needed to be in place for the monthly
payroll reconciliation.
Grantee management disagreed with the finding and associated recommendations
related to its DMS system. Grantee management stated that the finance staff must
have full access rights to the DMS system and that the activity logs would only identify
additions or deletions, but would not identify what documents were altered or removed.
Therefore, they argued, it was not necessary to both limit access and to document
activity through the logs.
Grantee management disagreed with the finding and related recommendation to fully
document how administrative fees assigned to the CLG are allocated to the LSC Basic
Field Grant. Grantee management stated that they already have a policy for allocating
the administrative fee.
Grantee management did agree with the finding and associated recommendations
addressing contracting controls. These two recommendations have been implemented
and are considered closed.


Lone Star Legal Aid – Audit of Selected Internal Controls

The OIG assessed the adequacy of selected internal controls in place at Lone Star
Legal Aid (LSLA), Houston (and field offices), TX, related to specific grantee operations
and oversight, including program expenditures and fiscal accountability.
Our audit found a number of significant problems with the design and operation of some
of the internal controls reviewed at LSLA. These control weaknesses are listed below.
The OIG reported that disbursements tested were, for the most part, adequately
supported, and allowable; however, the OIG found some expenditures that were
improperly charged to LSC funding.
We found that the grantee’s written policies and procedures appeared to be adequate
and in accordance with the Accounting Guide’s “Fundamental Criteria,” except for their
cost allocation methodology.      We reported that the grantee’s budgeting and
management reporting process appeared to be adequate and operating effectively. We
noted that controls over selected regulations reviewed were designed in a manner
expected to ensure compliance with the LSC Act and LSC regulations.
The OIG found that:

      The grantee did not segregate duties for four major business processes: payroll;
       office supply purchases; maintenance of the vendor list; and IT equipment
       purchasing.

      The cost allocation system was not adequately documented in the grantee’s
       accounting manual. The OIG was unable to determine if the system was



                                           6
        adequate, or, if designed adequately, whether the system was in fact operating
        as intended.

       The grantee needed to strengthen internal controls over IT equipment by tagging
        and securing property in a secure physical location under lock and key. The OIG
        identified three items valued at $665 that could not be physically located.

       The grantee used LSC funds to make computer purchases valued over $10,000
        without prior approval from LSC.

       There were unsupported credit card charges totaling $4,639, including charges
        for two airline tickets that were not adequately supported, and unallowable
        purchases of flowers and other items for personal life events of employees that
        were made with LSC funds.

As a result of our audit, the OIG questioned $18,4821 charged to LSC funds for
acquisitions over $10,000 made without LSC prior approval, disbursements that were
either unsupported or not allowed, and for missing equipment purchased with LSC
funds. The questioned costs were referred to LSC management for review.
The OIG made nine recommendations. We recommended that duties be properly
segregated in the areas of payroll, office supply purchases, maintenance of the vendor
list, and IT equipment purchasing. We also recommended that payroll processing be
properly supervised, including conducting detailed reviews of the payroll before
submission for ADP processing, and that before payments are made for purchases,
LSLA require a three-way match with the purchase order, invoice, and receiving report.
Other recommendations included the need to fully document the cost allocation process
in the grantee’s accounting manual; enforce policies to tag IT equipment; and securely
store unissued IT equipment at all times. The OIG recommended that the executive
director ensure that required LSC approvals be obtained before making individual
purchases over $10,000. The final two recommendations addressed the need to
enforce policies and procedures requiring disbursements to be adequately supported
before making payment and the need to ensure that LSLA staff are made aware of
expenses considered allowable and unallowable under LSC funding.
The OIG considered grantee management’s planned actions to be responsive to eight
of the nine recommendations, and to be partially responsive to one recommendation

1
 After referring the questioned costs to LSC management for review and based on an inquiry from LSC
management, the OIG discovered two of the items listed in the report that were identified as software
were in fact hardware maintenance and software maintenance. Under a recent LSC opinion, these items
would not require advance approval of LSC before making the purchase. The underlying finding,
recommendation, and management actions were not affected. However, the amount subject to
questioned cost proceedings was reduced from $45,762 to $18,482. To more accurately report
questioned costs processed by management, this summary and the Semiannual Report tables used to
track and report questioned costs have been adjusted to reflect the updated questioned cost amount.


                                                 7
because management’s comments did not address all aspects of that recommendation.
The OIG considers four of the nine recommendations as closed.
Grantee management disagreed with the finding and questioned cost associated with
obtaining prior approval from LSC for major acquisitions; however, management is
taking action to fully implement the recommendation.


Community Legal Services – Audit of Selected Internal Controls

The OIG assessed the adequacy of selected internal controls in place at Community
Legal Services, Inc. (CLS), Phoenix, AZ, related to specific grantee operations and
oversight, including program expenditures and fiscal accountability.

The OIG found that internal controls reviewed and tested at CLS were generally
adequate; however, some controls and practices needed to be formalized and
documented. We reported that disbursements tested were for the most part adequately
supported, allowable, and appeared to be properly allocated to LSC funds. We found
that controls reviewed were designed in a manner expected to ensure compliance with
selected provisions of the LSC Act and regulations. We did find, however, several
issues that needed management attention, as discussed more fully in the report.

The OIG found that:

      Four disbursements charged to LSC funds did not have adequate supporting
       documentation. The disbursements were for an airport shuttle, two restaurant
       charges, and office supplies.

      Policies and procedures needed to be fully developed, documented, and
       implemented with respect to soliciting, evaluating, and awarding individual
       contracts.

      The cost allocation system was not adequately documented in the grantee’s
       accounting manual.

The OIG made four recommendations:

      Enforce the grantee’s written policies and procedures requiring disbursements to
       be properly approved and fully supported.

      Formally document the grantee’s policies and procedures related to contracting
       for personal and real property, and for consulting contracts.

      Create a centralized contract filing system whereby each contract file relates to a
       specific contract and contains all pertinent documents related to the solicitation,
       receipt, and evaluation of bids, and the award of that contract.


                                            8
      Ensure that the cost allocation process is fully documented in CLS’s accounting
       manual.

Grantee management agreed with all the recommendations and stated that they would
implement them. Grantee management stated that they were in the process of securing
documentation for the disbursements charged to LSC funds. The grantee stated that
two of the managing attorneys responsible for the charges had retired or obtained other
employment; the grantee was continuing to investigate and make efforts to secure the
supporting documentation. The grantee agreed to reimburse LSC for the charges,
using unrestricted non-LSC funds.

The OIG considered grantee management’s planned actions to be responsive to all the
findings and recommendations. All four recommendations will remain open until
grantee management actions are completed and appropriate written notification is
provided to the OIG.


                      Audits of Technology Initiative Grants

OIG audits of grantees receiving Technology Initiative Grants (TIGs) focus on whether
TIG expenditures were allowable and supported, and whether the stated purposes of
the TIG have been achieved. This initiative is a follow-on to our FY 2011 audit report on
the TIG program at LSC headquarters.

Because LSC does not normally maintain information on the actual expenditures
charged to these grants, the OIG obtained expenditure information from grantees on
completed and terminated TIGs. Since the TIGs selected for review have been closed,
our reports are directed to LSC management rather than to the individual grantee. We
do, however, provide our draft findings to grantee management and invite their
comments as part of our report preparation process.

Our reports provide an opinion on the expenditures charged to the grant, refer any
questioned costs to LSC management, if necessary, and render a conclusion as to
whether the stated purpose of the grant had been accomplished. In addition, to the
extent we can identify potential improvements to the overall program or areas for
strengthening grant oversight, appropriate recommendations are made to LSC
management.


Examination of Expenditures Incurred for the Performance of TIGs
Awarded to Idaho Legal Aid Services

The OIG examined expenditures incurred for the performance of TIGs awarded to Idaho
Legal Aid Services (ILAS). The objectives of the examination were to determine
whether the expenditures for five ILAS TIGs totaling $511,755 were allowable and
whether the stated purposes of the TIGs were achieved.


                                           9
The OIG concluded that the stated purposes of the five TIGs appeared to have been
met. However, the OIG also concluded that for the five grants, $211,011 of personnel
and fringe benefit expenditures were not supported by adequate documentation and
$4,040 represented unexpended TIG funds not returned to LSC.

The grantee’s response indicated that, among other things, even though it was not told
by LSC to keep labor distribution records, it did have these records and they were
provided to the auditors for review. We reviewed the documentation provided on-site
and with the grantee’s written response, but found that the cost records and analysis did
not meet the requirements of the grants and of LSC regulations, and therefore we
continued to consider the amounts to be questioned costs. As a result of the audit, the
OIG referred $215,051 in questioned costs to LSC management.


FY 2012 Corporate Audit

The FY 2012 LSC financial statement audit report was issued this reporting period and
transmitted to LSC’s Board of Directors. The Corporation’s financial statement audit is
conducted by an independent public accounting firm under contract and subject to
general oversight by the OIG. The OIG reviewed the work of the firm and found it in
compliance with generally accepted government auditing standards.

The Independent Auditors’ Report stated that LSC’s financial statements “present fairly,
in all material respects, the financial position of LSC as of September 30, 2012 and
2011, and the changes in its net assets and its cash flows for the years then ended ….”
The auditors’ Report on Internal Control over Financial Reporting and on Compliance
and Other Matters identified no material weaknesses in internal controls and no
reportable noncompliance with laws and regulations.

The audit report did include a management letter prepared by the auditors that
addressed a weakness in the controls over the bank reconciliation process and the
voiding of checks. Management agreed to implement all recommendations and will
conduct and document training of staff on the revised procedures.




                                           10
                                      Statistical Summary


Audit Reports

     Open at beginning of reporting period ..................................... 6

     Issued during reporting period ................................................. 5

     Closed during reporting period ................................................ 3

     Open at end of reporting period ............................................... 8


Recommendations to LSC Grantees

     Pending at beginning of reporting period ............................... 25

     Issued during reporting period ............................................... 21

     Closed during reporting period .............................................. 10

     Pending at end of reporting period ........................................ 36


Recommendations to LSC Management

     Pending at beginning of reporting period ................................. 0

     Issued during reporting period ................................................. 0

     Closed during reporting period ................................................ 0

     Pending at end of reporting period .......................................... 0




                                                    11
                              Oversight of IPA Audits


Independent Audits of Grantees

Since 1996, LSC’s annual appropriations acts have required that each person or entity
receiving financial assistance from the Corporation be subject to an annual audit, to be
conducted by an independent public accountant (IPA). Each grantee contracts directly
with an IPA to conduct the required audit in accordance with generally accepted
government auditing standards and the OIG Audit Guide for Recipients and Auditors
(including the Compliance Supplement), which incorporates most requirements of OMB
Circular A-133, Audits of States, Local Governments, and Non-Profit Organizations.

The OIG provides guidance to the IPAs and grantees, as well as general oversight of
the IPA process. Our oversight activities include desk reviews of IPA audit reports and
quality control reviews of IPA working papers.


Desk Reviews of IPA Reports

The OIG conducts desk reviews of all IPA reports issued to grantees. This process
enables us to identify and forward significant IPA findings to LSC management as
necessary. We also track whether recommendations have been acted upon and
appropriate actions taken by the grantee. In addition, we use information from this
review of the IPA reports as part of our risk assessment and planning processes,
identifying potential problems or concerns that may warrant follow-up via audit,
investigation, or other review.


Quality Control Reviews

We completed the second year of our Quality Control Review (QCR) initiative. The
QCR initiative is a comprehensive program under which IPA firms performing grantee
audits will be subject to at least one QCR every four years. The QCRs determine
whether the IPA’s financial statement audit work, compliance audit work, and the
associated review of internal controls over both financial reporting and compliance were
conducted in accordance with applicable standards and in compliance with the
instructions issued by this office. The reviews are conducted by a CPA firm under
contract to the OIG. The contractor also identifies issues that may require additional
attention or any additional audit work by the IPA under review.

Second Year Results

This reporting period the OIG issued 22 QCR reports to IPAs. Three additional QCRs
have been completed by the contractor and are under review by the OIG prior to being
issued to the IPAs. The QCRs resulted in two audits being classified as not meeting
standards and 18 audits being classified as meeting standards but with exceptions. For

                                          12
20 QCRs, the IPAs were required to provide the OIG with additional documentation to
support the conclusions reached. For one QCR additional documentation was not
required at this time, but the IPA needed to ensure that additional steps will be taken on
future audits of LSC grantees. For one IPA report no deficiencies were noted in the
QCR. The OIG will review additional documentation required to be provided by the
IPAs to ensure that LSC grantees receive an acceptable audit.

The issues identified by QCRs in IPA audits classified as not meeting standards
primarily related to instances in which the basis for the auditor’s opinion on the financial
statements, compliance, and associated internal controls over both financial reporting
and compliance were unsupported or inadequately supported. The common exceptions
identified in QCRs classified as meeting standards related to deficiencies in ensuring
that LSC grantees complied with all of the requirements in their LSC grants.

Based on the findings of one QCR, the OIG issued a notice of proposed debarment to
an IPA. Noting that the QCR found substantial deficiencies in the IPA’s work, the OIG
cited multiple violations of government auditing standards as grounds for the proposed
action. The regulation governing debarment actions allows the IPA an opportunity to
respond to the notice of proposed debarment. As of the end of the reporting period, the
IPA was in the process of providing a response. The affected LSC grantee also
provided comments in response to the notice, as contemplated by the regulation. The
OIG will evaluate the response to determine whether it presents an issue of material
fact requiring a hearing or further fact finding. Should the OIG ultimately decide to
debar the IPA, the IPA would be prohibited from providing audit services to any LSC
grantee for a period of three years.

Advisory Memorandum

In addition to the individual QCR reports, the OIG issued an advisory memorandum for
all IPAs and grantee executive directors. The purpose of the memorandum was to
inform IPAs of the deficiencies identified so that this information can be used in planning
and conducting future audits. We are hopeful that this will help in preventing similar
types of deficiencies from occurring in the annual audits of LSC grantees.

The memorandum, with a complete list of the specific deficiencies identified, can be
found at our website (www.oig.lsc.gov) under the heading, “Auditors Resource” and
identified as “Advisory to Executive Directors and Grantee Independent Public
Accountants re: Summary Results of Quality Control Reviews (QCRs) for FY 2011
Financial Statement Audits.”


Follow-up Process

LSC’s annual appropriations acts have specifically required that LSC follow up on
significant findings identified by the IPAs and reported to the Corporation’s management
by the OIG. IPA audit reports are submitted to the OIG within 120 days of the close of

                                            13
each grantee’s fiscal year. As noted above, through our desk review process, the OIG
reviews each report and refers appropriate findings and recommendations to LSC
management for follow-up. LSC management is responsible for ensuring that grantees
submit appropriate corrective action plans for all material findings, recommendations,
and questioned costs identified by the IPAs and referred by the OIG to management.

After corrective action has been taken by the grantee, LSC management advises the
OIG and requests that the finding be closed. The OIG reviews management’s request
and decides independently whether sufficient basis exists to close the finding.


Review of Grantees’ Annual Audit Reports: IPA Audit Findings

During the reporting period, the OIG reviewed 21 IPA audit reports of grantees with
fiscal year ending dates from June 30, 2012, through September 30, 2012. The audit
reports and the findings reflect the work of the IPAs, not the OIG. These audit reports
contained four findings. The OIG reviewed the findings and determined that the four
findings were either not significant or that corrective action had already been completed,
and closed the findings. Therefore, no findings in the IPA reports reviewed during this
reporting period were referred to LSC management for follow-up.




                                           14
                                INVESTIGATIONS

OIG investigations this reporting period resulted in one indictment, one guilty plea, and
questioned costs totaling $62,976. The OIG opened 17 investigations during the period.
These included four criminal investigations, five compliance matters, four fraud
vulnerability assessments, and four regulatory vulnerability assessments. The criminal
investigations included allegations of fraudulent activity and financial irregularities at
grantees and sub-grantees. The compliance investigations included allegations of
violations of LSC statutes and regulations involving matters such as the outside practice
of law, redistricting, providing legal assistance to aliens, and lobbying.

The OIG closed 13 investigations during the reporting period. These included three
criminal investigations, four compliance matters, three fraud vulnerability assessments,
and three regulatory vulnerability assessments. The OIG also issued 14 Inspector
General subpoenas in connection with our ongoing work.


                                Criminal Proceedings


Former Grantee Employee Indicted and Pleads Guilty to Fraud

A former employee of an LSC grantee was indicted on February 21, 2013, by a grand
jury in the Northern District of West Virginia on federal charges stemming from a
scheme to defraud the grantee. The defendant was employed as a caseworker,
responsible for conducting outreach visits at nursing homes and other healthcare
facilities. Our investigation found that the defendant habitually failed to conduct the
visits, often simply remaining at home, yet continued to file salary and travel claims, and
ultimately obtained over $91,500 from the grantee through fraudulent claims. On March
21, 2013, the defendant entered a guilty plea to one count of federal program fraud in
violation of 18 U.S.C. §666(a)(1)(A). The investigation was conducted jointly by the OIG
and the Office of Inspector General, Department of Health and Human Services.



                                 Regulatory Actions


Former Grantee Employee Violated LSC Regulations

The OIG received a complaint that a grantee attorney was providing legal assistance to
Immigration and Customs Enforcement detainees held for deportation. The OIG
opened an investigation and found evidence that the grantee attorney had assisted
hundreds of ineligible aliens since at least 2004. LSC regulations (45 CFR Part 1626)
generally prohibits LSC grantees from providing legal assistance to an ineligible alien.
The OIG also found evidence the grantee attorney submitted non-compliant time
records in violation of LSC regulations (45 CFR Part 1635), and was paid mileage
                                            15
reimbursements by the grantee for travel associated with the restricted activity. The
grantee accepted the attorney’s resignation.     We referred the matter to LSC
management for a determination of whether questioned cost proceedings should be
initiated against the grantee to recover LSC funds spent in support of restricted
activities.


Grantee Employees Engaged in Prohibited Activities

An OIG investigation found evidence that several attorneys at one grantee engaged in
redistricting activities, which are prohibited by LSC regulations (45 CFR Part 1632).
The investigation determined that the grantee improperly charged approximately
$14,500 to LSC funds on activities associated with redistricting. The investigation also
found evidence of additional restricted activities by grantee attorneys, including the
outside practice of law (45 CFR Part 1604); lobbying (45 CFR Part 1612); and
timekeeping (45 CFR Part 1635). We referred the matter to LSC management for a
determination of whether questioned cost proceedings should be initiated against the
grantee to recover LSC funds spent in support of restricted activities.


                                 Recovery Actions

Investigation Results in Questioned Cost Proceeding

An OIG investigation, initially reported in our April 30, 2012, semiannual report, had
found evidence that two attorneys working for an LSC grantee had been conducting
outside practice of law for several years during grantee work hours without proper
authorization and in violation of LSC regulations (45 CFR Part 1604). The OIG
investigative findings were referred to LSC management and on February 15, 2013,
LSC management issued a “Notice of Questioned Costs” to the grantee in the amount
of $21,421.35 for time the attorneys and the grantee charged to LSC funds while the
attorneys were conducting their unauthorized outside practice of law.


                      Proactive Fraud Prevention Initiatives

The OIG maintains an active fraud prevention program, engaging in a variety of
outreach and educational efforts intended to help protect LSC and its grantees from
fraud and abuse. We regularly conduct fraud awareness briefings, fraud vulnerability
assessments, and regulatory vulnerability assessments, as described below, and
provide fraud alerts and other information that we believe will help increase grantees’
awareness of potential vulnerabilities.




                                          16
Fraud Awareness Briefings

Fraud awareness briefings (FABs), presented by OIG investigative staff, cover topics
such as who commits fraud, what conditions create an environment conducive to fraud,
why people commit fraud, how fraud can be prevented or detected, and what to do if
fraud is suspected.

While individuals at LSC-funded programs may be generally aware that fraud and
abuse can occur at any organization, they may not be aware of the potential for such
incidents to occur “close to home,” within their own programs. Moreover, we have
found that program staff often think that if there is such wrongdoing, it must be minimal.
Fraud awareness briefings highlight the unfortunate truth that a number of LSC-funded
programs have been victimized by frauds involving hundreds of thousands of dollars,
and in one case the diversion of over a million dollars in grant funds. The FABs
describe common types of fraud, with particular focus on the various schemes that have
been perpetrated against LSC grantees and the conditions that helped facilitate the
losses. The briefings aim to foster a dialogue with staff and to engender suggestions for
ways to help protect their own programs from fraud and abuse.

LSC grantees are invited to request a fraud awareness briefing at a time and place
convenient to them. We make every effort to accommodate requests as promptly as
possible. We encourage attendance by all program staff and welcome the grantee’s
board members, outside auditors, and other interested parties.

This reporting period the OIG conducted eight on-site fraud awareness briefings for
LSC-funded programs in Wisconsin, Illinois (two), Louisiana, Florida (three), and
California.

NLADA Conference

The OIG also presented a FAB at the National Legal Aid and Defender Association
2012 Annual Conference in Chicago, Illinois. Attendees included representatives of
LSC grantees and other conference participants. We received very positive feedback
on the session.


Webinar

This period we presented our second live FAB via Webinar. Webinar presentations are
designed to expand our fraud prevention efforts to those who cannot attend briefings in
person. All LSC grantee executive directors were sent an email invitation about the
Webinar, encouraging them to invite their staff, board members, outside auditors, and
sub-grantee executive directors to attend. Because of the easy accessibility of the
Webinar format 65 individuals from 31 LSC grantees were able to participate, including
12 executive directors, one outside auditor, one board member, and one sub-grantee
executive director.

                                           17
Fraud Vulnerability Assessments

The OIG’s fraud vulnerability assessments (FVAs) are conducted on-site at individual
grantee’s offices and consist of a focused document review in any areas considered
high risk, weak, or prone to abuse, and a review of grantee internal control policies and
the degree to which those policies are observed in practice. We also brief the executive
director and principal financial officer on fraud detection and prevention measures
keyed to their particular program. The FVAs can help grantees identify both existing
vulnerabilities and potential problem areas.

The OIG continued to analyze per capita costs in program travel and office supply
expenditures, areas that have often been focal points for diversion of program funds,
and to conduct FVAs at programs with apparent anomalies in their spending patterns.
Findings are incorporated into the FVA program on an on-going basis.

Two grantee FVAs were completed during the reporting period, in Wisconsin and
Florida. The reviews did not disclose indicators of fraud but did identify several
opportunities for improvement.

Summary Report on Fraud Vulnerability Assessments

The OIG issued a summary report of 19 grantee FVAs conducted from October 1, 2009,
through September 30, 2012. The FVAs found 43 deficiencies at the 19 grantees in the
areas of travel, office supplies, petty cash, credit cards, as well as accounting issues
such as bank reconciliations and voided checks. The deficiencies identified by the OIG
during each assessment were discussed with the grantee’s executive director, who in
most instances took prompt corrective action and/or planned to take future action. The
OIG also provided senior management and accounting staff at the grantee with
guidance to improve fraud prevention and detection.

Fraud Vulnerability Assessment Conducted at LSC Headquarters

The OIG conducted an FVA at LSC headquarters in Washington, D.C., at the request of
the LSC President. The review did not disclose indicators of fraud but did identify
several opportunities for improvement.        LSC management responded to OIG
suggestions by taking prompt action to make improvements in internal controls and
operations with respect to certain payments and procedures.


Regulatory Vulnerability Assessments

The OIG has been conducting a pilot program of regulatory vulnerability assessments
(RVAs). Working on-site with grantees, we examine their compliance policies,
procedures, and practices to identify any weaknesses that could lead to regulatory
violations and increased exposure to fraud.


                                           18
RVAs were triggered by our experience in recent years in investigating financial frauds
in which grantees have been victimized. We found a recurring theme in that the failure
to comply with, or laxity with respect to, certain LSC regulations, grant assurances,
Accounting Guide provisions, and case documentation and reporting requirements
contributed to an environment that increased the potential for fraud. We believe that
focusing on certain key compliance areas enables grantees to apply the classic “ounce
of prevention” and avoid both regulatory issues and broader financial vulnerabilities.

The pilot program consisted of six RVAs. Five reviews were conducted in the last two
reporting periods and the final one was completed in New Jersey this reporting period.
Based on the positive results of the pilot RVAs we have now fully incorporated the RVA
program into our regular schedule of proactive and preventive initiatives.

The OIG completed two additional (post-pilot) RVAs this reporting period, in Louisiana
and Florida. RVA results are provided to grantee executive directors as well as LSC
management, as appropriate.

Summary Report on Regulatory Vulnerability Assessments

The OIG issued a summary report on eight grantee RVAs conducted from January 2012
through December 2012. The RVAs found 35 deficiencies at the eight grantees in the
areas of program integrity (45 CFR Part 1610), client eligibility (45 CFR Part 1611),
private attorney involvement (45 Part 1614), bar membership (45 CFR Part 1616), sub-
grants (45 CFR Part 1627), fidelity bonding (45 CFR Part 1629), timekeeping (45 CFR
Part 1635), and contractual agreements (45 CFR Part 1640), as well as client trust
accounts, travel, and paralegal oversight (areas subject to LSC guidelines in the
Accounting Guide and Case Service Report Handbook). The deficiencies identified by
the OIG during each RVA were discussed with the grantee’s executive director, who in
most instances took prompt corrective action and/or planned to take future action. The
OIG also provided senior management and accounting staff with guidance to improve
fraud prevention and detection.


Fraud Alert Issued on Employer-paid Health Care

During the reporting period, we issued a fraud alert to all LSC grantees to inform them
about the risks of employees improperly enrolling ineligible persons on employer-paid
health care plans, which can substantially increase benefit costs for the employer. The
fraud alert was an outgrowth of two recent OIG investigations which identified over
$7,500 in improper health care premium payments. The investigations revealed that
employees from two separate programs had claimed ineligible persons for employer-
paid health care coverage. The OIG fraud alert provided additional information about
these investigations and explained steps LSC grantees can take to reduce the risk of
paying health care premiums for ineligible persons.




                                          19
Hotline

The OIG maintains a Hotline for reporting illegal or improper activities by LSC grantees
or staff. Information may be provided by telephone, fax, email, or mail. Upon request, a
provider’s identity will be kept confidential. Reports may also be made anonymously.

During this reporting period, the OIG received 63 Hotline contacts (compared to 80 for
the previous period). Of these matters, eight were referred to LSC management for
follow-up; two were opened as investigations; four are open pending further inquiry; and
the remaining 49 were closed.




                                          20
                                           Statistical Summary

Investigative Cases

    Open at the beginning of period .............................................. 7
    Opened during period ........................................................... 17
    Closed during period ............................................................. 13
    Open at the end of period...................................................... 11


Prosecutorial Activities

    Referrals to prosecutive authorities……………………………..2
    Indictments .............................................................................. 1
    Guilty pleas…………………………………………………………1



Investigative Activities

    Inspector General subpoenas issued .................................... 14



Monetary Results

    Questioned costs referred to LSC management……….$62,976




                                                           21
                          OTHER OIG ACTIVITIES

Review of Proposed Legislation, Regulations and Policy

Pursuant to our statutory responsibilities, the OIG reviews and, where appropriate,
comments on statutory and regulatory provisions affecting LSC and/or the OIG, as well
as LSC interpretive guidance and internal policies and procedures.

This period marked the culmination of longstanding efforts to enhance LSC’s
enforcement mechanisms. We have supported amendments to LSC’s regulations that
would lengthen maximum available suspension periods, authorize limited reductions in
funding in cases of substantial noncompliance, and make explicit the Corporation’s
authority to impose special grant conditions during a grant term.

The OIG worked with LSC management to address our concerns in revisions to the
proposed regulations published in an August 7, 2012, Further Notice of Proposed
Rulemaking. Along with LSC management, the OIG supported adoption of these
revised regulations, and on January 26, 2013, the LSC Board of Directors voted to
adopt them as a Final Rule. The Final Rule was published in the Federal Register on
February 13, 2013; the amendments became effective on March 15, 2013. The OIG
believes these changes will provide LSC with important additional flexibility as a grant
administrator and go a long way toward remedying shortcomings in LSC’s previous
enforcement capabilities.


Litigation

On November 14, 2011, the United States District Court for the District of Columbia
issued an order granting our petition for enforcement of an OIG subpoena issued to
California Rural Legal Assistance (CRLA). The court held that the OIG’s subpoena was
issued for a lawful purpose and that the information sought was reasonably relevant to
the OIG’s investigative purpose. The court also concluded that the OIG’s proposed
review protocol could allow for adequate privilege review of the electronic data sought
by the subpoena without overburdening CRLA. Subject to a protective order, the court
enforced the subpoena as narrowed by agreement of the parties in the course of
litigation and as requested by the OIG.

On December 13, 2011, CLRA appealed the district court’s order granting enforcement
of the OIG’s subpoena. On January 12, 2012, the OIG filed a cross-appeal. Briefing of
the case is now complete; oral argument is scheduled for April 11, 2013.


Congressional Requests

The OIG regularly responds to a wide variety of Congressional requests and inquiries.
This period we responded to the request of a joint Senate-House task force on climate

                                          22
change for information on statutory, regulatory, or other requirements applicable to LSC
with respect to climate change, and actions LSC might take in the area.


Management Information Memoranda

The OIG issues Management Information Memoranda (MIMs) when we believe that
issues uncovered in the course of ongoing OIG work should be brought promptly to
management’s attention, so that management may consider taking immediate
corrective action. During this reporting period, the OIG issued a MIM entitled, Bank
Deposit Insurance Coverage. The memorandum highlighted recent changes (effective
January 1, 2013), effectively decreasing the limits of Federal Deposit Insurance
Corporation (FDIC) coverage of bank deposits. We referenced findings of both our own
site visits and of internal LSC reviews indicating that some grantee accounts exceeded
the FDIC insurance limits, thereby putting funds potentially at risk. We recommended
that LSC promote grantee awareness in this area, so that grantees could take
precautionary measures where appropriate.


Freedom of Information Act

The OIG is committed to complying fully with the requirements of the Freedom of
Information Act (FOIA). During this reporting period, the OIG received eight FOIA
requests; all were responded to within the requisite timeframes.


Professional Activities and Assistance

The OIG participates in and otherwise supports various activities and efforts of the
Council of the Inspectors General on Integrity and Efficiency (CIGIE), as well other inter-
agency and professional groups. The IG serves as a member of the CIGIE Audit
Committee, which focuses on government auditing standards and cross-cutting audit
issues. Senior OIG officials are active participants in IG community peer groups in the
areas of audits, investigations, inspections and evaluations, public affairs, new media,
and legal counsel. The groups provide forums for collaboration and are responsible for
such initiatives as developing and issuing professional standards, establishing protocols
for and coordinating peer reviews, providing training programs, and promulgating best
practices. The OIG also routinely responds to requests for information or assistance
from other IG offices.




                                            23
                      APPENDIX – PEER REVIEWS

The following information is provided pursuant to the requirements of Section 989C of
Public Law 111-203 (July 21, 2010), the Dodd-Frank Wall Street Reform and Consumer
Protection Act, amending the Inspector General Act of 1978 (the IG Act), 5 U.S.C. App
3. The references are to the newly added provisions of Section 5(a) of the IG Act.

(14)(B) – The last peer review of the OIG was conducted by the Office of Inspector
General for the Corporation for Public Broadcasting, and was completed on September
30, 2011.

(15) – There are no outstanding recommendations from any peer review of the OIG
conducted by another Office of Inspector General that have not been fully implemented.

(16) – The OIG did not conduct a peer review of another Office of Inspector General
during this reporting period. There are no outstanding recommendations made from
any previous peer review that remain outstanding or have not been fully implemented.




                                         24
                                               TABLE I

         Audit Reports and Quality Control Reviews Issued
                    for the Period Ending March 31, 2013


                                        Audit Reports
                                                                        Funds
                                                                        Put to
                                                  Date
                                                           Questioned   Better   Unsupported
Report Title                                     Issued      Costs       Use        Costs

Report on Selected Internal Controls – Legal    12/21/12       $0        $0          $0
Aid and Defender Association

Report on Selected Internal Controls—Lone       01/15/13    $18,482      $0        $4,639
Star Legal Aid

Legal Services Corporation FY 2012 Financial    01/03/13       $0        $0          $0
Statement Audit Report

Report on Selected Internal Control—            03/21/13       $0        $0          $0
Community Legal Services

Examination of Expenditures Incurred for the    03/28/13    $215,051     $0       $215,051
Performance of Technology Initiative Grants
Awarded to Idaho Legal Aid Services




                                                  25
                                  Quality Control Reviews
            IPA                                  Recipient                          Date Issued

 1   Barnes Dennig & Co.              Legal Aid Society of Greater Cincinnati        10/22/12
 2   Gilmore, Jasion, Mahler, Ltd.    Legal Aid Society of Western Ohio              11/21/12
 3   Toski, Schaefer & Co.            Legal Assistance of Western New York           11/29/12
 4   Mahler Duessel, CPAs             Northwestern Legal Services                    01/22/13
 5   Mahler Duessel, CPAs             North Penn Legal Services                      01/22/13
 6   Mahler Duessel, CPAs             MidPenn Legal Services                         01/22/13
 7   Cook and Morehart, CPAs          Legal Services of North Louisiana              01/22/13
 8   Mark Diak, CPA                   Land of Lincoln Legal Assistance Foundation    02/12/13
 9   VonLehman CPA                    Appalachian Research and Defense Fund          02/15/13
10   Harrington Group, CPAs           Neighborhood Legal Services of Los Angeles     02/15/13
                                      County
11   Harrington Group,, CPAs          Legal Aid Foundation of Los Angeles            02/19/13
12   Harrington Group, CPAs           California Rural Legal Assistance              02/19/13
13   Harrington Group, CPAs           Bay Area Legal Aid                             02/19/13
14   Harrington Group, CPAs           California Indian Legal Services               02/22/13
15   Yoakum, Lovell & Co.             Center for Arkansas Legal Services             03/21/13
16   Yoakum, Lovell & Co.             Legal Aid of Arkansas                          03/21/13
17   Amato, Fox & Co.                 Neighborhood Legal Services                    03/26/13
18   Bachelor, Frechette,             Rhode Island Legal Services                    03/28/13
     McCrory, Michelor & Co.
19   Banks, Finley, White & Co.       North Mississippi Rural Legal Services         03/28/13
20   Barcalow & Hart, PLLC            Legal Aid Society of Eastern Virginia          03/28/13
21   Barcalow & Hart, PLLC            Legal Services of Northern Virginia            03/28/13
22   Barcalow & Hart, PLLC            Blue Ridge Legal Services                      03/28/13



                                  	




                                                    26
                                            TABLE II

                   Audit Reports Issued with Questioned Costs
                         for the Period Ending March 31, 2013

                                          Number of
                                           Reports     Questioned Costs   Unsupported
                                                                             Costs

A. For which no management decision           5           $1,526,531       $141,700
        has been made by the
        commencement of the reporting
        period.


B. Reports issued during the reporting        2            $233,533        $219,690
       period



   Subtotals (A + B)                          7           $1,760,064       $361,390

C. For which a management decision            3            $103,310         $85,959
        was made during the reporting
        period:


       (i) dollar value of
            recommendations that were                       $3,659          $3,659
            agreed to by management


  (ii) dollar value of recommendations                     $99,651          $82,300
             that were not agreed to by
             management


D. For which no management decision           4           $1,656,754        $275,431
        had been made by the end of the
        reporting period



    Reports for which no management           2           $1,423,221        $55,741
       decision had been made within
       six months of issuance




                                                  27
                                        TABLE III

Audit Reports Issued with Funds to Be Put to Better Use
               for the Period Ending March 31, 2013

                                                             Number of   Dollar
                                                              Reports    Value

A. For which no management decision has been made by            0         $0
        the commencement of the reporting period


B. Reports issued during the reporting period                   0         $0

        Subtotals (A + B)                                        0        $0

C. For which a management decision was made during the          0         $0
        reporting period:

        (i) dollar value of recommendations that were           0         $0
             agreed to by management
        (ii) dollar value of recommendations that were not      0         $0
                   agreed to by management

D. For which no management decision had been made by            0         $0
        the end of the reporting period


   Reports for which no management decision had been            0         $0
       made within six months of issuance




                                                28
                                               TABLE IV

       Audit Reports Issued Before this Reporting Period for
         Which No Management Decision on Questioned
        Costs Was Made by the End of the Reporting Period

                                             Date       Questioned
             Report Title                   Issued        Costs                     Comments

Examination of Expenditures Incurred        07/10/12      $55,741      Management decision provided to
for the Performance of TIG Grants                                      grantee in March. Awaiting end of
Awarded to Southeast Louisiana Legal                                   30-pay period for grantee to appeal
Services                                                               decision.

Report on Selected Internal Controls –      08/06/12     $1,367,480    Questioned      cost    proceeding
Inland County Legal Services                                           initiated.




          Audit Reports Issued Before this Reporting Period
                    with Open Recommendations
                as of the End of the Reporting Period


                                                Date
              Report Title                     Issued                        Comments

Report on Selected Internal Controls:         09/30/11      LSC management is working with the grantee
Legal Services of Northern Virginia, Inc.                   to resolve all open recommendations.

Report on Selected Internal Controls:         03/30/12      Corrective action in progress.
North Mississippi Rural Legal Services

Report on Selected Internal Controls:         06/12/12      Corrective action in progress.
Texas RioGrande Legal Aid, Inc.

Report on Selected Internal Controls:         08/03/12      Corrective action in progress.
South Jersey Legal Services

Report on Selected Internal Controls:         08/06/12      Corrective action in progress.
Inland Counties Legal Services, Inc.




                                                       29
                                                 TABLE V

                          Index to Reporting Requirements
                               of the Inspector General Act
    IG Act
  Reference*                                Reporting Requirement                                 Page

 Section 4(a)(2)    Review of legislation and regulations.                                         22

 Section 5(a)(1)    Significant problems, abuses, and deficiencies.                               9-10

 Section 5(a)(2)    Recommendations with respect to significant problems, abuses, and             9-10
                    deficiencies.

 Section 5(a)(3)    Prior significant recommendations on which corrective action has not           29
                    been completed.

 Section 5(a)(4)    Matters referred to prosecutive authorities.                                   21

 Section 5(a)(5)    Summary of instances where information was refused.                           None

 Section 5(a)(6)    List of audit reports by subject matter, showing dollar value of questioned    25
                    costs (including a separate category for the dollar value of unsupported
                    costs) and funds to be put to better use.

 Section 5(a)(7)    Summary of each particularly significant report.                              9-10

 Section 5(a)(8)    Statistical table showing number of audit reports and dollar value of          27
                    questioned costs.

 Section 5(a)(9)    Statistical table showing number of reports and dollar value of                28
                    recommendations that funds be put to better use.

Section 5(a)(10)    Summary of each audit issued before this reporting period for which no         29
                    management decision was made by the end of the reporting period.

Section 5(a)(11)    Significant revised management decisions.                                     None

Section 5(a)(12)    Significant management decisions with which the Inspector General             None
                    disagrees.
Section
  5(a)(14)-(16)     Peer reviews.                                                                  24


*Refers to sections in the Inspector General Act of 1978, as amended.




                                                        30
        OFFICE OF INSPECTOR GENERAL

               HOTLINE
 IF YOU SUSPECT –
     FRAUD INVOLVING LSC GRANTS OR OTHER FUNDS

    WASTE OF MONEY OR RESOURCES

    ABUSE BY LSC EMPLOYEES OR GRANTEES

    VIOLATIONS OF LAWS OR LSC REGULATIONS



PLEASE CALL OR WRITE TO US AT –
    PHONE    800-678-8868 OR 202-295-1670
    FAX      202-337-7155
    E-MAIL   HOTLINE@OIG.LSC.GOV
    MAIL     P.O. BOX 3699
             WASHINGTON, DC 20027-0199



UPON REQUEST YOUR IDENTITY WILL BE KEPT CONFIDENTIAL REPORTS
                 MAY BE MADE ANONYMOUSLY
